es
I

OCKLE

2311 Douglas Street A . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B eS contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
Nos. 19-251 & 19-255

AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,

V.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS
THE ATTORNEY GENERAL OF CALIFORNIA,
Respondent.

 

THOMAS MORE LAW CENTER,
Petitioner,
Vv.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS
THE ATTORNEY GENERAL OF CALIFORNIA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the AMICUS CURIAE BRIEF
OF THE PHILANTHROPY ROUNDTABLE IN SUPPORT OF PETITIONERS in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 7069 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this Ist day of March, 2021.
tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska & Chie
i RENEE J. GOSS Q. ‘

f My Comm. Exp. September 5, 2023
Affiant 40591

 

Notary Public
